No. _______

In the Supreme Court of the United States
___________
KENNETH J. JACKSON, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
____________
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
____________
The Petitioner asks leave to file the attached
petition for a writ of certiorari without prepayment
of costs and to proceed in forma pauperis.
Petitioner has previously been granted counsel
under the Criminal Justice Act, 18 U.S.C. §3006A,
in the Northern District of Ohio and in the Sixth
Circuit Court of Appeals.
____________

/s/ Kevin M. Cafferkey
Kevin M. Cafferkey
Counsel of Record
55 Public Sq. – STE 2100
Cleveland, Ohio 44113
Office: (216) 363-6014
Fax: (216) 363-6015
kmcafferkey@hotmail.com
September 28, 2021

Counsel for Petitioner

Case: 19-3623

Document: 1

Filed: 07/02/2019

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: July 02, 2019

Mr. Kevin M. Cafferkey
Law Office
55 Public Square
Suite 2100
Cleveland, OH 44113
Re: Case No. 19-3623, USA v. Kenneth Jackson, Jr.
Originating Case No. : 1:15-cr-00453-1
Dear Counsel,
This appeal has been docketed as case number 19-3623 with the caption that is enclosed on a
separate page.
As defendant's trial counsel, your appointment under the Criminal Justice Act is extended
automatically pursuant to Sixth Circuit Rule 12(c)(2). This letter serves as your authorization
to order any transcript which you deem necessary for the appeal. Even if the defendant filed
the notice of appeal, Sixth Circuit Rule 12(c)(1) requires that counsel continue representation on
appeal until specifically relieved by this Court.
Before preparing any documents to be filed, counsel are strongly encouraged to read the Sixth
Circuit Rules at www.ca6.uscourts.gov. If you have not established a PACER account and
registered with this court as an ECF filer, you should do so immediately. Your password for
district court filings will not work in the appellate ECF system.
At this stage of the appeal, the following forms should be downloaded from the web site and
filed with the Clerk's office by July 16, 2019. Additionally, the transcript order must be
completed by that date.
NOTE: Effective July 18, 2016, all attorneys must order transcript for appeal by using the
CM/ECF docket entries. The transcript order form used prior to that date will not be accepted
after July 18. For further information and instructions on ordering transcript electronically,
please visit the court's website.

Case: 19-3623

Document: 1

Filed: 07/02/2019

Page: 2

Appellant:

Appearance of Counsel
Application for Admission to 6th Circuit Bar (if applicable)

Appellee:

Appearance of Counsel
Application for Admission to 6th Circuit Bar (if applicable)

More specific instructions are printed on each form. If the filing fee for the appeal is due
because the appellant is not indigent, it must be paid to the District Court by July 16,
2019. These deadlines are important -- if the initial forms are not timely filed or the filing fee is
due but not paid, the appeal will be dismissed for want of prosecution.
If you have questions after reviewing the forms and the rules, please contact the Clerk's office
for assistance.
Sincerely yours,
s/Roy G. Ford
Case Manager
Direct Dial No. 513-564-7016
cc: Ms. Kelly L. Galvin
Mr. Robert J. Patton
Enclosure

